TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Bankruptcy Procedures Designed to
                       Protect Taxpayer Rights and the
                    Government’s Interest Were Not Always
                                  Followed



                                          March 6, 2014

                              Reference Number: 2014-30-013




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


BANKRUPTCY PROCEDURES                                 during this review, there is a higher risk that this
DESIGNED TO PROTECT TAXPAYER                          could occur when procedures are not followed.
RIGHTS AND THE GOVERNMENT’S                           TIGTA’s review of three random samples of
INTEREST WERE NOT ALWAYS                              closed bankruptcy cases showed that specialists
FOLLOWED                                              did not always follow established procedures in
                                                      17 (57 percent) of 30 Chapter 7 cases,
                                                      15 (50 percent) of 30 Chapter 11 cases, and
Highlights                                            13 (43 percent) of 30 Chapter 13 cases
                                                      reviewed. Specifically, specialists did not
Final Report issued on March 6, 2014                  always timely or properly conduct the initial case
                                                      analysis, follow up on scheduled case actions
Highlights of Reference Number: 2014-30-013           within a reasonable time, or timely or properly
to the Internal Revenue Service Commissioner          close cases.
for the Small Business/Self-Employed Division.
                                                      TIGTA also reviewed a random sample of
IMPACT ON TAXPAYERS                                   30 bankruptcy cases with Automated Proof of
                                                      Claim flag conditions (errors that need to be
The bankruptcy automatic stay provision               resolved by a specialist). Specialists did not
prohibits the IRS from taking certain collection      timely or properly resolve the flag conditions in
actions against a debtor (taxpayer) as soon as it     12 (40 percent) of 30 cases.
learns, or is notified by a U.S. bankruptcy court,
that a bankruptcy petition has been filed.            WHAT TIGTA RECOMMENDED
Similarly, the debtor may be granted a
                                                      TIGTA recommended that the Director, Field
discharge, which remains after the case is
                                                      Collection, Small Business/Self-Employed
closed and is a permanent injunction order
                                                      Division: 1) enhance casework priorities and
prohibiting the IRS from taking any form of
                                                      efficiencies; 2) ensure that specialists are
collection action against the debtor personally
                                                      properly conducting the initial analysis and
with respect to discharged debts. If the IRS
                                                      closing actions; 3) ensure that the Automated
does not observe the automatic stay or the
                                                      Insolvency System follow-up tool is the preferred
discharge injunction, taxpayers’ rights could
                                                      method for creating follow-ups; 4) ensure that
potentially be violated and the IRS could be
                                                      case actions are properly documented for
sued for damages.
                                                      Automated Proof of Claim flag conditions; and
WHY TIGTA DID THE AUDIT                               5) ensure that the Flagged Cases Report is the
                                                      preferred method for monitoring cases.
In Fiscal Year 2012, IRS data showed that the
Field Insolvency function received                    In their response to the report, IRS officials
306,920 bankruptcy cases on taxpayers owing           agreed with all of our recommendations and
approximately $2.5 billion in taxes, penalties,       plan to take corrective actions.
and interest. This audit was initiated to
determine whether the function has effective
controls and procedures in place to take
appropriate and timely actions to protect the
Government’s interest and taxpayers’ rights
during bankruptcy proceedings.
WHAT TIGTA FOUND
Field Insolvency function specialists frequently
did not follow required procedures when working
bankruptcy cases. Although TIGTA did not
identify any violations of taxpayers’ rights and/or
failure to protect the Government’s interest
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                March 6, 2014


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION



 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Bankruptcy Procedures Designed to Protect
                                 Taxpayer Rights and the Government’s Interest Were Not Always
                                 Followed (Audit # 201230013)

 This report presents the results of our review to determine whether the Field Insolvency function
 has effective controls and procedures in place to take appropriate and timely actions to protect
 the Government’s interest and taxpayers’ rights during bankruptcy1 proceedings. This audit was
 included in our Fiscal Year 2013 Annual Audit plan and addresses the major management
 challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Nancy Nakamura,
 Assistant Inspector General for Audit (Compliance and Enforcement Operations).




 1
     See Appendix V for a glossary of terms.
                    Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                         the Government’s Interest Were Not Always Followed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          The Field Insolvency Function Has Established Procedures
          and Tools to Work and Control Case Inventory ........................................... Page 6
          Bankruptcy Procedures Designed to Protect Taxpayer Rights and the
          Government’s Interest Were Not Always Followed ..................................... Page 7
                    Recommendations 1 through 3:......................................... Page 16

                    Recommendations 4 and 5: .............................................. Page 17


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 18
          Appendix II – Major Contributors to This Report ........................................ Page 22
          Appendix III – Report Distribution List ....................................................... Page 23
          Appendix IV – Bankruptcy Specialist Duties ............................................... Page 24
          Appendix V – Glossary of Terms ................................................................. Page 27
          Appendix VI – Management’s Response to the Draft Report ..................... Page 31
        Bankruptcy Procedures Designed to Protect Taxpayer Rights and
             the Government’s Interest Were Not Always Followed




                        Abbreviations

AIS               Automated Insolvency System
APOC              Automated Proof of Claim
EQRS              Embedded Quality Review System
FMC               First Meeting of Creditors
IRS               Internal Revenue Service
NFTL              Notice of Federal Tax Lien
TIGTA             Treasury Inspector General for Tax Administration
                   Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                        the Government’s Interest Were Not Always Followed




                                             Background

During Fiscal Year1 2012, approximately 1.26 million individuals and businesses filed for
bankruptcy. Although the Internal Revenue Service (IRS) was not a creditor to each of them, a
significant number of these debtors (taxpayers) have outstanding tax liabilities. As such, it is
important for the IRS to timely and accurately work bankruptcy cases to ensure that both the
Government’s interest and taxpayers’ rights are protected. Figure 1 shows the number of annual
bankruptcy court filings and the percentage of filings that resulted in an IRS case receipt.2
                          Figure 1: Number of Bankruptcy Court Filings
                              and Percentage of IRS Case Receipts




    Source: U.S. Courts website (www.uscourts.gov) and IRS Collection Activity Reports 5000-23.




1
 See Appendix V for a glossary of terms.
2
 IRS case receipts do not necessarily have outstanding tax debts, but the IRS has to work the case to make that
determination.
                                                                                                            Page 1
               Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                    the Government’s Interest Were Not Always Followed



This graph shows that IRS receipts compared to court filings increased from an average of
35 percent for Fiscal Years 2007 through 2010 to an average of 40 percent for Fiscal Years 2011
through 2012, indicating that more taxpayers filing bankruptcies also owe Federal taxes.
The Collection Insolvency function, a part of the Small Business/Self-Employed Division
Collection function, is responsible for administering the coordination between the
U.S. bankruptcy courts and the IRS. In October 2005, the IRS redesigned the Collection
Insolvency function to improve operations and ensure the equitable treatment of taxpayers in
bankruptcy. The redesign included centralization, standardization, and process improvement.
Selected processing activities performed at Field Insolvency function locations throughout the
country were consolidated at the IRS Philadelphia Campus’ Centralized Insolvency Operation
function. The more complex and location-specific work is still performed by the Field
Insolvency function, which currently consists of 55 groups of bankruptcy specialists (hereafter
referred to as specialists) located throughout the country.
The IRS generally receives bankruptcy notifications electronically from the U.S. bankruptcy
courts. In addition, some notifications are sent directly by the court to the IRS through paper
copies of petitions or other documents or from taxpayers or attorneys after they contact the IRS.
Revenue officers or other IRS personnel may also notify the Centralized Insolvency Operation
function or Field Insolvency function employees of a known bankruptcy that is related to an
open case.
The moment a taxpayer files a petition with the court, an automatic stay provides immediate
relief from all demands for payment and stops lawsuits, foreclosures, garnishments, and
collection activity against the taxpayer. In addition, it allows individuals and businesses to seek
relief by resolving debts through liquidation, a plan of reorganization, or a payment plan. The
automatic stay prohibits the IRS from taking certain collection actions against the taxpayer as
soon as it learns, or is notified by the court, that a bankruptcy petition has been filed. Similarly,
the debtor may be granted a discharge, which remains after the case is closed and is a permanent
injunction order prohibiting the IRS from taking any form of collection action against the debtor
personally with respect to discharged debts. If the IRS fails to observe the automatic stay or the
discharge injunction, the taxpayer’s rights could potentially be violated and the IRS could be
sued for damages. In addition, to receive its share in any distribution of funds from a taxpayer’s
bankruptcy estate, the IRS must generally file a proof of claim with the court.
Figure 2 lists the six basic types of bankruptcy filings which are provided for under the
Bankruptcy Code. The type of bankruptcy filing generally depends on the individual’s financial
situation.




                                                                                              Page 2
                  Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                       the Government’s Interest Were Not Always Followed



                               Figure 2: Types of Bankruptcy Filings

                       Chapter 7        – Liquidation.
                       Chapter 9        – Adjustment of Debts of a Municipality.
                       Chapter 11 – Reorganization.
                       Chapter 12 – Adjustment of Debts of a Family Farmer or
                                     Fisherman With Regular Annual Income.
                       Chapter 13 – Adjustment of Debts of an Individual With
                                     Regular Income.
                       Chapter 15 – Ancillary and Other Cross-Border Cases.
                  Source: Internal Revenue Manual 5.9.2.3(2), 03-01-2006.

Federal tax debts may or may not be dischargeable in a bankruptcy. For example, taxes resulting
from income may be dischargeable, but taxes resulting from failure to remit payroll taxes are not
dischargeable.3 Also, even though receipt of tax revenue can be delayed when a taxpayer files
for bankruptcy, the IRS may eventually receive payments through the bankruptcy.
The Centralized Insolvency Operation function performs most clerical duties for all types of
bankruptcy cases, including loading cases on the Automated Insolvency System (AIS). Once
loaded, e-mail notifications are systemically generated to alert Field Insolvency function
specialists of newly assigned cases to work. The Centralized Insolvency Operation function also
works Chapter 7 No Asset4 cases, monitors Chapter 13 cases after plan confirmation, and
processes Chapter 13 trustee payments.
The Field Insolvency function generally works Chapter 13 cases until confirmation. In
Chapter 11 cases, specialists review, monitor, process payments, and take closing actions. The
specialists also work all Chapter 7 Asset5 cases; review schedules and plans for Chapter 11, 12,
and 13 cases; make referrals to IRS Chief Counsel and the U.S. Attorney’s office, as applicable,
for all types of bankruptcy filings; appear in court as expert witnesses; attend meetings with
creditors; participate in outreach efforts; and negotiate with taxpayers or their representatives.
Specialists are required to document the case history with sufficient detail to record actions and
decisions taken on cases.



3
  See Appendix IV for more details on dischargeable tax debts.
4
  A Chapter 7 No Asset case is a case in which no equity in the debtor’s assets is available to pay unsecured
creditors because all of the debtor’s assets are exempt, excluded, fully encumbered by secured liens, or have little
value.
5
  A Chapter 7 Asset case is a case in which a debtor has assets that are nonexempt and available for use in paying
creditors’ claims.
                                                                                                               Page 3
                  Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                       the Government’s Interest Were Not Always Followed



The major duties and actions taken by specialists include:6
        Filing a Proof of Claim. The proof of claim (hereafter referred to as a claim) is the
         primary method in which the IRS receives funds in a bankruptcy proceeding and is
         needed to protect the Government’s interest. Claims are electronically generated through
         the Automated Proof of Claim (APOC) system. When the APOC system encounters a
         condition that cannot be resolved, it creates a flag condition (hereafter referred to as an
         APOC flag condition) that specialists must timely and accurately resolve so the claim can
         be filed. If flags with potential stay violations are not worked timely, taxpayers’ rights
         could be violated. In addition, the IRS generally has 180 calendar days from the
         bankruptcy petition date in which to file a claim. This 180-calendar-day deadline is
         commonly referred to as the bar date. Timely and accurately prepared claims allow the
         IRS to receive its share in any distribution of funds from a taxpayer’s bankruptcy estate.
        Conducting Initial Case Analysis. Specialists must timely and appropriately conduct an
         initial case review after the case is assigned. This is important to allow sufficient time to
         identify and resolve case issues such as attending the first meeting of creditors (FMC),
         questioning the taxpayer, and evaluating payment plan potential.
        Monitoring for Filing and Payment Compliance. Specialists must monitor bankruptcy
         cases to ensure that taxpayers are compliant with filing current and post-petition tax
         returns and making Federal tax deposits, if required.
        Initiating Closing Actions. Specialists must timely and appropriately initiate closing
         actions. There are five common methods to close a bankruptcy case: 1) dismissal;7
         2) denial of discharge; 3) discharge;8 4) full paid; and 5) no liability. Timely and
         proper closing actions help to ensure that the Government’s interest is protected by
         allowing collection activity to resume on tax debts as appropriate, without violating
         the automatic stay or the discharge injunction. Timely refunds help prevent taxpayer
         burden and protect taxpayers’ rights.
In working a bankruptcy case, specialists apply various bankruptcy procedures under which
bankruptcy proceedings are commenced, administered, and closed. While the Bankruptcy Code
and the Federal Rules of Bankruptcy Procedure are consistent throughout the Nation, specialists
also need to follow local bankruptcy rules, standing orders, and procedures which vary from
court to court. These local procedures are interpretations and modifications of the Bankruptcy
Code to meet the requirements in particular jurisdictions. Local procedures also dictate the
progress of a case until its closure, and the IRS usually has no control over such matters. As a
result, some of these cases may be open for long periods of time.


6
  See Appendix IV for details of bankruptcy specialist duties.
7
  11 U.S.C. § 349.
8
  11 U.S.C. § 524.
                                                                                               Page 4
               Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                    the Government’s Interest Were Not Always Followed



A growing challenge for the Collection Insolvency function is that it is required to work all
incoming bankruptcy inventory; it cannot suspend or shelve incoming cases, which puts a strain
on existing resources. Furthermore, diminishing resources caused by normal attrition, the
inability to hire, and budget cuts makes the function’s mission even more challenging.
In Fiscal Year 2012, the Field Insolvency function received 306,920 bankruptcy cases on
taxpayers owing approximately $2.5 billion in taxes, penalties, and interest. In addition, the
function closed 360,431 bankruptcy cases, collecting approximately $607 million. The scope of
this review focused specifically on the responsibilities of the Field Insolvency function.
This review was performed at the IRS Small Business/Self-Employed Division’s Collection
Field function Field Insolvency function offices in Jacksonville, Florida; Atlanta, Georgia; and
Dallas, Texas, during the period August 2012 through June 2013. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 5
               Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                    the Government’s Interest Were Not Always Followed




                                  Results of Review

Overall, the Field Insolvency function has established procedures for specialists to take
appropriate and timely actions on bankruptcy cases. However, procedures were not always
followed, which put the Government’s interest and taxpayers’ rights at risk. Specifically, we
determined that specialists:
      Did not always take or did not timely take initial case analysis actions.
      Did not always timely or properly close cases.
      Delayed taking some follow-up actions.
      Did not always timely or accurately resolve APOC flag conditions.
Although we did not identify any violations of taxpayers’ rights and/or failure to protect the
Government’s interest during this review, this is an area where IRS management needs to place
greater attention and oversight.

The Field Insolvency Function Has Established Procedures and Tools
to Work and Control Case Inventory
Field Insolvency function employees obtain guidance on tax law and internal procedures to work
bankruptcy cases from the Internal Revenue Manual, interim guidance memorandums, and local
bankruptcy policy and procedures. Employees are required to follow these procedures when
working bankruptcy cases.
Additionally, the AIS has many systemic features that assist managers and specialists to
effectively work bankruptcy cases. Some of these features are used to:
      Establish bankruptcy case files.
      Maintain case histories.
      Prepare and process claims.
      Monitor tax compliance.
      Schedule and monitor follow-up actions.
      Monitor payment plans and post payments.
      Request referrals or investigations.
      Review open and closed case files.
                                                                                           Page 6
                  Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                       the Government’s Interest Were Not Always Followed



Most importantly, the AIS provides report tools that specialists and managers are expected to use
to ensure that cases in their inventories are worked properly, with the intent of protecting
taxpayers’ rights and the interests of the Government. Generating and using AIS reports help to
ensure that the Field Insolvency function inventory is processed efficiently and effectively. For
example, the AIS Follow-Up Report lists all cases in which a scheduled follow-up action is
required, including the action needed. The Flagged Cases Report lists all cases in which the
APOC system has identified an unresolved APOC flag condition. Proper and consistent use of
these reports would help to ensure that required actions, such as following up and resolving error
conditions, are taken timely.
In addition, there are various resource materials to help specialists perform a quality case
analysis. For example, specialists may access the Integrated Data Retrieval System and/or
available court documents to obtain business, corporate officer, income, expense, and asset
information, which helps them properly calculate and classify a claim or determine if a payment
plan is sufficient.

Bankruptcy Procedures Designed to Protect Taxpayer Rights and the
Government’s Interest Were Not Always Followed
Our review of three random samples (30 Chapter 7, 30 Chapter 11, and 30 Chapter 13) of
bankruptcy cases closed between June 1, 2011, and May 31, 2012, showed some positive results
when specialists followed procedures and took appropriate actions. For example, specialists took
proper actions, when applicable, to:
        Determine if a lien refile was appropriate on cases in which a Notice of Federal Tax Lien
         (NFTL) was filed.
        Determine if a Trust Fund Recovery Penalty was applicable.
        Monitor compliance related to bankruptcy payment plans and taxpayers’ filing and
         payment requirements.
In addition, a separate test of a random sample of 30 bankruptcy cases with APOC flag
conditions that were cleared by specialists between June 1, 2011, and May 31, 2012, showed that
in all 30 cases, the proof of claim was timely filed within the required 180 calendar days or, if
filed later, was accepted by the court. Specialists also properly verified the classification of
secured tax periods9 in all applicable cases.
However, we found that specialists and managers frequently did not follow all of the required
procedures. The remainder of the report discusses these deficiencies.


9
  Secured tax periods are those in which the IRS has an NFTL attached to the taxpayer’s assets to secure a tax
liability.
                                                                                                             Page 7
                  Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                       the Government’s Interest Were Not Always Followed



Field Insolvency function specialists’ case actions were not always properly or
timely performed
Test results show that in 17 (57 percent) of 30 Chapter 7 cases, 15 (50 percent) of
30 Chapter 11 cases, and 13 (43 percent) of 30 Chapter 13 cases, specialists did not always
follow established procedures to perform some case actions.10 Specifically, specialists did not
always:
        Timely or properly conduct the initial case analysis.
        Follow up on scheduled case actions within a reasonable time.
        Timely or properly close cases.
Based on the results of our review from a population of 30,664 Chapter 7, 5,859 Chapter 11, and
86,299 Chapter 13 bankruptcy cases, we estimate there were 11,584 Chapter 7 cases,
2,511 Chapter 11 cases, and 37,396 Chapter 13 cases with untimely or improper actions on the
initial case analysis, untimely or improper closure of cases, or follow-up delays on scheduled
case actions.11
Initial case analysis actions were not always taken or were untimely
IRS guidelines in place when the IRS works the cases require that the initial case review of
Chapters 7, 11, and 13 cases be completed by specialists at least five calendar days prior to the
FMC date. If the case is not assigned at least five calendar days prior to the FMC date, the
specialist has 30 calendar days to complete the initial analysis.12
Specialists generally conduct the initial case analysis after the claim has been filed. Actions
taken during the initial analysis may include determining if IRS attendance is required at the
FMC to address any pending issues, reviewing the payment plan to determine if the plan
adequately provides for the filed claim, and identifying potential stay violations. In addition,
IRS management issued streamline procedures for certain Chapter 13 cases to help minimize the
required actions for the initial case analysis. For example, there is no requirement to attend the
FMC in certain cases or to review the payment plan.
In 13 Chapter 7, 10 Chapter 11, and 12 Chapter 13 cases, specialists did not always timely or
properly conduct the initial case analysis. Figure 3 shows the number of errors in each of the


10
   The count on the breakdown of cases under each issue (initial analysis, follow-up, and closing actions) will not
add up to these figures because one case could have more than one type of issue.
11
   We are 95 percent confident that the range of cases with some instances of untimely or improper actions on the
initial case analysis, untimely or improper closure of cases, or follow-up delays on scheduled case actions is between
7,195 and 15,974 for Chapter 7 cases, between 1,539 and 3,483 for Chapter 11 cases, and between 21,835 and
52,958 for Chapter 13 cases. See Appendix I for details on how the projections were calculated.
12
   Initial case analysis for Chapter 7 and 11 cases assigned prior to July 2010 should be completed within
10 workdays of assignment.
                                                                                                             Page 8
                    Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                         the Government’s Interest Were Not Always Followed



three samples in which specific initial analysis actions were not taken, were untimely, or were
improper.
                 Figure 3: Number of Errors for Initial Case Analysis Actions13

            Errors for Initial Case Analysis Actions         Chapter 7     Chapter 11      Chapter 13

            Did Not Timely Conduct Initial Analysis             **1**            4                 5
            Did Not Conduct Initial Analysis                      3            N/A             N/A
            Did Not Investigate for Exempt, Abandoned,
            or Excluded Properties                                6              0                 0
            Did Not Determine if FMC Attendance Was
            Required                                              0              7            **1**
            Did Not Research to Identify Financial
            Condition or Hidden Assets                            7              0                 3
            Did Not Review or Document Payment Plan              N/A           **1**               5
            Did Not Address Filing Requirements or
            Unfiled Tax Returns                                   3              0                 0

            TOTAL                                               **1**          **1**          **1**

           Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of sampled
           bankruptcy cases.

In some cases, specialists delayed processing the claim, which affected the timeliness of the
initial analysis. In other cases, specialists delayed conducting the initial analysis until after the
claim was submitted to the APOC system for processing. It appears that the delays were caused
by caseworkers not monitoring case actions, although IRS management could not confirm this.
In addition, **********************************1********************************
****************************************1*************************************
****1******However, streamline procedures only apply to Chapter 13 cases, indicating that the
specialist may not have been aware of the different criteria.
Conducting the initial case analysis accurately, completely, and early in the case is important to
allow sufficient time to identify and resolve case issues such as attending the FMC, questioning
the taxpayer, and evaluating payment plan potential. In addition, there is a risk that the IRS may
not receive the revenue to which it is entitled if specialists do not carefully assess the taxpayer’s
financial condition during the initial analysis.




13
     A case can have more than one type of error.
                                                                                                        Page 9
               Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                    the Government’s Interest Were Not Always Followed



Specialists delayed taking follow-up actions
The Field Insolvency function Embedded Quality Review System (EQRS) job aid addresses the
importance of timely actions on bankruptcy cases. It states that actions should be timely to
resolve case issues and help move the case towards resolution. Employees should take timely
actions and avoid unexplained lengthy gaps in case activity. It also states that cases progress
appropriately when they are monitored.
However, management has not established standards for timeliness on follow-up actions because
of the nature of bankruptcy inventory and limited resources. All incoming bankruptcy notices
are worked by the Collection Insolvency function. Cases are assigned to Field Insolvency
function specialists on a continuing basis regardless of the size of their current inventory. To
address this challenge, management has given specialists the authority to continuously prioritize
their work and determine if a scheduled follow-up action takes priority over other actions, such
as filing a claim. Because there are no standards, we used a 30-calendar-day criterion as a
reasonable time for which scheduled follow-up actions should be taken by specialists.
In four Chapter 7, eight Chapter 11, and **1** Chapter 13 cases, specialists delayed following up
on scheduled case actions by more than 30 calendar days. For example, specialists delayed
following up to:
      Secure requested delinquent returns needed to file an amended claim.
      Obtain information from the taxpayer’s attorney to clarify discrepancies in the financial
       records.
      Obtain the bankruptcy schedules and the Employer Identification Number that could
       potentially affect taxpayers’ assets and figures on the claim.
      Confirm the adequacy of the plan after it was reviewed by the specialist and before a
       payment plan is confirmed by the court.




                                                                                          Page 10
                    Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                         the Government’s Interest Were Not Always Followed



Figure 4 shows the number of instances in which scheduled case actions were not followed up
within 30 calendar days by type of bankruptcy chapter.
                                 Figure 4: Delays in Follow-Up Actions

                           Number of
                          Calendar Days
                             Delayed            Chapter 7      Chapter 11       Chapter 13

                          31–90 days               **1**             814            **1**
                          91–180 days              **1**           **1**              0
                          >180 days                **1**           **1**              0
                          TOTALS                   **1**           **1**            **1**
                         Source: TIGTA analysis of sampled bankruptcy cases.

To assist in monitoring case actions, specialists have the ability to use the AIS Follow-Up
Report, which shows the scheduled date and action needed to be taken for all cases for which a
follow-up action is required. However, this tool is available only for cases in which specialists
use the AIS follow-up tool to schedule follow-up actions. Currently, specialists are not required
to use the AIS follow-up tool and may instead use other tools, such as the calendar feature on
their computers. For the 17 instances of untimely follow-ups, there were eight instances in
which specialists did not use the AIS follow-up tool. When follow-up actions are not taken
timely, it can affect the timeliness of subsequent enforcement actions. For example, we
determined that **1** Chapter 7 **1**, four Chapter 11 cases, and **1** Chapter 13 **1** could
have potentially been released to Collection function inventory sooner if follow-up delays had
not occurred. Delays in collection enforcement action can reduce the likelihood of collecting
revenue.
Specialists did not always timely or properly close cases
Closing actions on cases must generally be initiated by the Field Insolvency function within
30 calendar days of receipt of the discharge or dismissal order. A lien determination is required
in dismissed cases or discharged cases with nondischargeable taxes if the unpaid balance of the
assessment is more than $10,000. A lien determination will ensure that an NFTL is filed after
the automatic stay is lifted. In addition, cases should be transferred to the Centralized Insolvency
Operation function for closing actions for Chapter 7 individual cases in which a notice of
discharge has been received and for business cases in which a claim has been prepared and
acknowledged by the court and certain other conditions are met.




14
     There were 11 instances of delayed follow-up actions in the eight Chapter 11 cases.
                                                                                             Page 11
                     Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                          the Government’s Interest Were Not Always Followed



In seven Chapter 7 cases,15 ***1*** Chapter 11 **1**, and three Chapter 13 cases, specialists did
not timely or properly take closing actions. Specifically:
           In three Chapter 7 cases, specialists did not initiate closing actions timely. ****1****
            ********************************1***************************************
            ********************************1***************************************
            ********************************1***************************************
            **********1************ Untimely closing actions ranged from 19 calendar days to
            333 calendar days late.
           *********************************1**************************************
            *********************************1**************************************
            **********************1**********************.
           ***********************************1************************************
            ***********************************1************************************
            ***********************************1************************************
            ***********************************1************************************
            ***********************************1************************************
            ***********************************1************************************
            ***********************************1**********************.
           ***********************************1************************************
            ***********************************1************************************
            ***********************************1************************************
            ***********************************1************************************
            *******1*********.
If bankruptcy cases are not closed timely, there is a risk that collection actions could be
unnecessarily delayed on cases with nondischarged liabilities. In addition, making a lien
determination is important to help protect the Government’s interest.
Manager case reviews identified similar findings
We reviewed the EQRS managerial reviews from January 1, 2011, to December 31, 2012, for a
judgmental sample16 of 11 specialists who worked cases in our sample in which employee errors
were identified. Our review showed that the 11 specialists’ managers identified and provided
feedback on the same types of employee errors that we identified. For example, the managers
identified cases and provided feedback to employees when initial case analyses were not timely
conducted, when case closures were not timely or appropriate, and when follow-up actions were
not timely taken.

15
     **************************************1***************************************************.
16
     A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                              Page 12
               Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                    the Government’s Interest Were Not Always Followed



Field Insolvency function managers provide oversight and direction to bankruptcy specialists and
are responsible for the quality of all work assigned to their group. Field Insolvency function
managers’ oversight responsibilities include ensuring that employee case actions are timely and
in accordance with current policies and procedures. Also, managers are required to conduct
mandatory case reviews of the work of each specialist under their supervision. These reviews
can be a valuable tool for improving performance. For example, case reviews provide Field
Insolvency function managers with opportunities to ensure that specialists are adhering to
standards, reinforce the importance of completing case actions timely, and pinpoint and address
performance gaps.
IRS management informed us that it is difficult to determine all the causes for these employee
errors because many of the cases in our sample were opened prior to Fiscal Year 2010 and
worked over a multiyear period. Also, there could have been more than one specialist working
the case during this time, and if case histories did not contain sufficient documentation,
management could not substantiate the actual reason for the errors. However, results of our
judgmental sample review indicate that although managers are identifying and providing
feedback to employees on these types of errors, EQRS managerial reviews alone were not
effective at preventing the errors from occurring. For example, Field Insolvency function group
managers are required to complete at least 15 reviews per employee per year. However, based
on Fiscal Year 2012 bankruptcy closures and the current number of bankruptcy specialists,
15 reviews per employee was less than 3 percent of bankruptcy cases closed. Because managers
are only required to review a small percentage of cases worked, there is a higher risk that
untimely and improper actions will go undetected.

When specialists do not address flag conditions timely or properly, taxpayers’
rights could be violated and revenue could be lost
When the APOC system encounters a condition that cannot be resolved, it creates an APOC flag
condition which specialists must timely and accurately resolve so the claim can be filed. We
reviewed a separate random sample of 30 bankruptcy cases with APOC flag conditions. Results
showed that specialists did not timely or properly resolve the flag conditions for 12 (40 percent)
of 30 cases.
      For seven (23 percent) cases, specialists did not work some of the flag conditions within
       the required time frames.
      For five (17 percent) cases, specialists did not take proper actions or we could not
       determine if proper actions had been taken.




                                                                                              Page 13
                 Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                      the Government’s Interest Were Not Always Followed



Based on the results of our case reviews from a population of 108,327 bankruptcy cases with
APOC flag conditions, we estimate there were 33,331 cases17 with some instances of untimely or
improper actions to resolve APOC flag conditions.
Flags were not worked within required time frames
IRS procedures state that APOC flag conditions are generally required to be worked within
five calendar days of the FMC. However, secured period flags must be worked within
10 calendar days of the APOC system notification. Flags that indicate a potential stay violation,
such as payments received after the bankruptcy petition date, must be addressed within
five calendar days of the APOC system’s notification of the condition. In seven (23 percent)18
of the 30 cases reviewed, we found that:
        Four cases with flags were not worked within five calendar days of the FMC. Untimely
         actions ranged from three to 170 calendar days late.
        Three cases with secured period flags were not worked within 10 calendar days of
         notifications by the APOC system. Untimely actions ranged from one to 32 calendar
         days late.
        ********************************1***************************************
         ********************************1********************************
The time frame to clear APOC flag conditions allows the specialist an opportunity to assess
whether IRS attendance at the FMC is warranted. However, sometimes attendance is needed
before APOC flag conditions can be resolved, which could lead to inefficient or ineffective case
work. For example:
        If flags are not addressed prior to the FMC, specialists may not know that additional
         financial information should be obtained at the meeting (such as unreported wages or
         income). In addition, in certain cases, taxpayer assets may be available for the IRS to
         attach an NFTL in order to satisfy any tax liabilities but were not identified before the
         FMC.
        If secured period flags are not worked timely, there is a risk that taxpayer assets may be
         dissipated before the claim is filed with the court.
        If flags with potential stay violations are not worked timely, taxpayers’ rights could be
         potentially violated. For example, an NFTL filed after the petition date would need to be
         released.


17
   We are 95 percent confident that the range of bankruptcy cases with some instances of untimely or improper
actions to resolve APOC flag conditions is between 17,438 and 49,225. See Appendix I for details on how the
projection was calculated.
18
   A case can have more than one type of untimely action.
                                                                                                         Page 14
               Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                    the Government’s Interest Were Not Always Followed



In all seven cases, the specialist did not effectively monitor the case after assignment to
determine when the APOC system had completed processing and the flag condition could be
worked. Specialists may use the AIS Flagged Cases Report to monitor assigned cases for APOC
flag condition notifications. However, there is no requirement that specialists use this report to
monitor their inventory. If the Flagged Cases Report had been used, it could have potentially
identified the APOC flag conditions prior to the appropriate deadline and allowed specialists to
work them timely.
Required actions to resolve APOC flag conditions were not always taken
There are various types of APOC flag conditions that may require specific actions to resolve.
For example, actions may be needed when a payment is received after the petition date, when an
NFTL is recorded on a specific period, and when the date of the lien is not recorded on the AIS.
In five (17 percent) of 30 cases reviewed, the specialist did not take appropriate actions to
resolve various APOC flag conditions or we could not determine if proper actions were taken
because specialists did not adequately document their actions.
      ********************************1***************************************
       ********************************1***************************************
       ********************************1***************************************
       ********************************1***************************************
       ********************************1***************************************
       ********************************1***************************************
       **1*******.
      **********************************1*************************************
       **********************************1*************************************
       **********************************1*************************************
       **********************************1*************************************
       *************1*******.
      In three cases, we were unable to determine if proper actions were taken to calculate the
       claim amounts due because the AIS case histories were not sufficiently recorded. For
       example, specialists did not document their research of the bankruptcy schedules to
       determine the taxpayer’s equity on a secured claim or the basis used for adjusting the
       amount of interest owed on a tax liability. If research and claim calculations are not
       documented and the amounts are later disputed, specialists may need to perform the same
       work again which is not an efficient use of program resources.
The IRS relies on periodic managerial reviews to determine the quality and effectiveness of
casework, including the timeliness of actions taken by employees. We reviewed the EQRS
results for a judgmental sample of five specialists (who worked cases with errors in our sample)
from January 1, 2011, to December 31, 2012. Our review showed that the five specialists’
managers identified and provided feedback on these types of flag issue errors. However, as
                                                                                          Page 15
               Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                    the Government’s Interest Were Not Always Followed



previously mentioned, managers typically review less than 3 percent of specialists’ cases, which
creates a risk that untimely and improper actions will go undetected. The managers for these
specialists had not selected any of the cases with errors in our sample when they conducted their
managerial reviews.
If APOC flag conditions are not resolved properly, claim amounts may not be accurate, resulting
in a potential loss of revenue. In addition, if specialists do not document required case actions in
the AIS history, they may be unable to provide testimony in court hearings regarding claim data
and computations that may be needed to protect the Government’s interest.

Recommendations
The Director, Field Collection, Small Business/Self-Employed Division, should:
Recommendation 1: Reevaluate the Field Insolvency function to determine whether
casework priorities and efficiencies can be enhanced to ensure that the function can continue
protecting taxpayer rights and the Government’s interest using available resources.
       Management’s Response: IRS management agreed with this recommendation.
       Specifically, management will: 1) implement selected Insolvency Task Force
       recommendations designed to increase efficiencies and enhance business results and
       2) reissue a memorandum designating Field Insolvency function priorities based on
       available resources.
Recommendation 2: Ensure that specialists are conducting the initial analysis and closing
cases appropriately and in a timely manner. In addition, a reminder should be given to
specialists that streamlined procedures are for Chapter 13 cases only.
       Management’s Response: IRS management agreed with this recommendation.
       Specifically, management will: 1) issue a Field Insolvency function memorandum on the
       use of Chapter 13 streamlined procedures and the use of available tools to enhance
       efficiencies, and hold a Field Insolvency function group manager meeting on the use of
       Chapter 13 streamlined procedures; 2) conduct targeted Territory case reviews on the use
       of Chapter 13 streamlined procedures; and 3) include a management performance
       standard in Fiscal Year 2014 to address complete and timely actions on cases prior to
       closure.
Recommendation 3: Ensure that specialists understand that the AIS follow-up tool is the
preferred method for scheduling follow-up actions so that these actions will be reflected on the
AIS Follow-Up Report.
       Management’s Response: IRS management agreed with this recommendation.
       Specifically, management will: 1) issue a Field Insolvency function memorandum on the
       use of the AIS Follow-Up Screen to schedule next case actions and to complete follow-up

                                                                                            Page 16
              Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                   the Government’s Interest Were Not Always Followed



       actions timely; 2) conduct group manager workshops on scheduling follow-up actions
       and the use of the AIS to manage follow-up activities; and 3) begin targeted case reviews
       addressing the use of the AIS Follow-Up Screen and timeliness of follow-up actions.
Recommendation 4: Ensure that specialists properly document case actions to support
decisions taken when addressing APOC flag conditions.
       Management’s Response: IRS management agreed with this recommendation.
       Specifically, management will: 1) initiate targeted Territory reviews of documentation of
       case actions in accordance with the requirements of the Internal Revenue Manual;
       2) conduct group manager coaching sessions or workshops on required documentation of
       case actions; and 3) conduct operational reviews to address documentation of case
       actions.
Recommendation 5: Ensure that specialists understand that the Flagged Cases Report is the
preferred method for monitoring cases to identify unresolved APOC flag conditions. In addition,
management should consider whether improvements can be made to ensure that specialists take
appropriate, timely action to resolve flag conditions.
       Management’s Response: IRS management agreed with this recommendation.
       Specifically, management will: 1) initiate targeted reviews in each Territory of cases
       with APOC flag condition(s) to review whether appropriate, timely action was taken by
       specialists to resolve the APOC flag condition(s); 2) conduct group manager coaching
       sessions or workshops on APOC flag conditions emphasizing appropriate actions and
       time frames for completion; and 3) conduct operational reviews to address cases with
       APOC flag conditions.




                                                                                        Page 17
                    Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                         the Government’s Interest Were Not Always Followed



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall audit objective was to determine whether the Field Insolvency function has effective
controls and procedures in place to take appropriate and timely actions to protect the
Government’s interest and taxpayers’ rights during bankruptcy1 proceedings. To accomplish this
objective, we:
I.         Identified the IRS’s procedures and guidelines for working bankruptcy cases.
           A. Reviewed applicable IRS procedures and guidelines.
           B. Interviewed IRS management to discuss the bankruptcy program, procedures, and
              internal controls.
           C. Conducted a site visit to the Field Insolvency function offices in Jacksonville,
              Florida; Atlanta, Georgia; and Dallas, Texas. The locations were selected by
              identifying the States with the highest and the lowest individual performance scores
              from the National Quality Review System results and a location where receivership
              cases were worked.
               1. Interviewed Field Insolvency function management and specialists to identify and
                  evaluate procedures to work, control, and monitor their inventory.
               2. Performed a walkthrough with a specialist to observe the procedures for handling
                  bankruptcy cases.
II.        Obtained previous and current key statistics related to bankruptcy filing from the
           U.S. Courts website (www.uscourt.gov) and the IRS Collection Activity Reports for
           trends.
III.       Determined whether the Field Insolvency function is timely and properly resolving the
           APOC flag conditions generated by the APOC system to ensure that proofs of claim are
           accurately prepared.
           A. Identified the population of APOC flag condition cases that were cleared between
              June 1, 2011, and May 31, 2012, from the AIS. The population for APOC flag
              condition cases was 108,327 cases.
           B. Validated a random sample of 15 cases from our original data extracts in Step III.A.
              by verifying several fields, which included the AIS docket completion date, Taxpayer

1
    See Appendix V for a glossary of terms.
                                                                                            Page 18
                    Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                         the Government’s Interest Were Not Always Followed



                Identification Number, tax period, and Transaction Code 520 with an appropriate
                bankruptcy closing code on the Integrated Data Retrieval System, to determine the
                reliability of the data. Our validation showed that the data were sufficiently reliable
                for our tests.
           C. Selected a random sample of 30 cases from the population identified in Step III.A. for
              review. We originally selected an oversample of 60 cases to ensure that we obtained
              enough cases meeting our criteria. We conducted our review in selection order of the
              first 30 cases, but we were unable to review nine cases because they did not meet our
              criteria. We excluded those nine cases and replaced them with the next nine cases in
              selection order to complete the review of 30 cases. We conducted a case review to
              determine whether timely and appropriate actions were taken to resolve the APOC
              flag conditions by reviewing the AIS case history and the Integrated Data Retrieval
              System.
           D. Reviewed the EQRS results from January 1, 2011, to December 31, 2012, for a
              judgmental sample2 of five specialists who worked cases in our sample in which
              employee errors were identified. We selected a judgmental sample because we only
              needed the EQRS results for specific employees, and there was no need to project the
              results of the sample to the population.
           E. Projected the number of errors to the entire population of 108,327. Our projection
              was based on a sample of 39 because we had to select an additional nine cases to
              obtain our sample size of 30 cases. The actual overall error rate was 40 percent and
              precision was 17.83 percent. We are 95 percent confident that the range of cases with
              some instances of untimely or improper actions to resolve APOC flag conditions is
              between 17,438 and 49,225.
IV.        Determined if Field Insolvency function specialists took proper actions to effectively
           work, monitor, and control their inventory.
           A. Identified the population of Chapter 7, Chapter 11, and Chapter 13 bankruptcy cases
              worked by Field Insolvency function specialists and closed between the periods of
              June 1, 2011, through May 31, 2012, from the AIS. The population of bankruptcy
              cases was 30,664 Chapter 7, 5,859 Chapter 11, and 86,299 Chapter 13 cases.
           B. Validated a random sample of 15 cases from our original data extracts in Step IV.A.
              by verifying several fields, which included the AIS closed date, Taxpayer
              Identification Number, tax period, and Transaction Code 521 with an appropriate
              bankruptcy closing code on the Integrated Data Retrieval System, to determine the
              reliability of the data. Our validation showed that the data were sufficiently reliable
              for our tests.

2
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 19
       Bankruptcy Procedures Designed to Protect Taxpayer Rights and
            the Government’s Interest Were Not Always Followed



   Selected three random samples of (30 Chapter 7, 30 Chapter 11, and 30 Chapter 13)
   bankruptcy cases from the population identified in Step IV.A for review. We selected
   an oversample of 60 cases for each type of bankruptcy to ensure that we obtained
   enough cases meeting our criteria. We conducted our review in selection order of the
   first 30 cases, but we were unable to review 15 Chapter 7 and five Chapter 11 cases
   because they did not meet our criteria. We excluded those 15 and five cases and
   replaced them with the next 15 and five cases, respectively, in selection order to
   complete the review of 30 cases for Chapter 7 and 30 cases for Chapter 11.
C. Conducted a case review to determine whether specialists were taking proper actions
   to effectively monitor and control their inventory, such as:
   1. Timely and properly conducting initial case analysis.
   2. Effectively monitoring cases to ensure that taxpayers were filing current and
      post-petition tax returns, and making required payments according to the plan.
   3. Timely and properly closing bankruptcy cases.
D. Reviewed the EQRS reviews from January 1, 2011, to December 31, 2012, for a
   judgmental sample of 11 specialists who worked cases in our sample in which
   employee errors were identified. We selected a judgmental sample because we only
   needed the EQRS results for specific employees, and there was no need to project the
   results of the sample to the population. We verified if managers identified and
   provided feedback on the same types of employee errors that we identified on the
   review.
E. Projected the number of errors to the entire population of 30,664 Chapter 7,
   5,859 Chapter 11, and 86,299 Chapter 13 cases. Our projection was based on a
   sample of:
   1. 45 Chapter 7 cases. The actual overall error rate was 56.66 percent and precision
      was 18.04 percent. We are 95 percent confident that the range of cases with
      untimely and improper actions is between 7,195 and 15,974. Our projection was
      based on a sample of 45 because we had to select an additional 15 cases to obtain
      our sample of 30.
   2. 35 Chapter 11 cases. The actual overall error rate was 50 percent and precision
      was 18.20 percent. We are 95 percent confident that the range of cases with
      untimely and improper actions is between 1,539 and 3,483. Our projection was
      based on a sample of 35 because we had to select an additional five cases to
      obtain our sample of 30.




                                                                                Page 20
              Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                   the Government’s Interest Were Not Always Followed



          3. 30 Chapter 13 cases. The actual overall error rate was 43.33 percent and
             precision was 18.04 percent. We are 95 percent confident that the range of cases
             with untimely and improper actions is between 21,835 and 52,958.
V.      Discussed our sampling methodologies with our contract statistician to obtain agreement
        and ensure that we could project the error rates to the populations when needed.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Field Insolvency function policies and
procedures, AIS and Integrated Data Retrieval System programing controls, and the EQRS. We
evaluated these controls by observing Field Insolvency function employees receive and work
bankruptcy cases, interviewing management, and reviewing samples of bankruptcy cases.




                                                                                       Page 21
              Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                   the Government’s Interest Were Not Always Followed



                                                                            Appendix II

                Major Contributors to This Report

Nancy Nakamura, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Timothy F. Greiner, Acting Director
Phyllis Heald London, Audit Manager
Doris A. Cervantes, Lead Auditor
Michael A. Garcia, Senior Auditor
Matthew J. Schimmel, Senior Auditor




                                                                                    Page 22
              Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                   the Government’s Interest Were Not Always Followed



                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Office of Research, Analysis, and Statistics RAS
Director, Enterprise Collection Strategy, Small Business/Self-Employed Division SE:S:CS
Director, Field Collection, Small Business/Self-Employed Division SE:S:FC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                     Page 23
                    Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                         the Government’s Interest Were Not Always Followed



                                                                                     Appendix IV

                            Bankruptcy Specialist Duties

The following are the major duties of bankruptcy1 specialists, who are required to protect the
Government’s interest and taxpayers’ rights during bankruptcy proceedings.

Filing a Proof of Claim
The proof of claim is the primary method by which the IRS receives funds in a bankruptcy
proceeding. Generally, the IRS has 180 calendar days from the bankruptcy petition date in
which to file a claim. This 180-calendar-day deadline is commonly referred to as the bar date.
The claim lists the taxpayer’s outstanding liabilities and classifies each liability into one or more
of three categories that help determine the order in which funds are distributed to creditors:
          Secured claims are those for which the IRS has an NFTL attached to the taxpayer’s assets
           to secure a tax liability.
          Unsecured priority claims are liabilities that are not secured by an NFTL but have priority
           over other unsecured claims. Generally, prepetition liabilities for which the tax return
           was due less than three years prior to the petition date are entitled to priority, although
           taxes in certain other situations may also be entitled to priority.
          Unsecured general claims are liabilities that are classified as neither secured nor
           unsecured priority. These claims include all penalties, with the exception of the Trust
           Fund Recovery Penalty, and any interest associated with those penalties.
Most of the IRS’s claims are electronically generated by Field Insolvency function offices
through the APOC system and electronically transmitted to the bankruptcy court. However,
when the APOC system encounters a condition that cannot be resolved, a flag is issued which
requires timely and accurate intervention by specialists so the claim can be processed. Flags are
separated in two categories, case or period flags, with each having various types of conditions
that require specific actions to resolve.




1
    See Appendix V for a glossary of terms.
                                                                                              Page 24
               Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                    the Government’s Interest Were Not Always Followed



Conducting Initial Case Analysis
Specialists must timely and appropriately conduct an initial case review after the case is
assigned. The primary case actions taken by specialists during the initial case analysis, when
applicable, include:
      Reviewing for collection potential from exempt, abandoned, or excluded properties of
       individual debtors.
      Researching to determine the taxpayer’s financial condition or to identify potential
       hidden assets.
      Addressing all filing requirements or any unfiled returns.
      Determining if the Trust Fund Recovery Penalty should be assessed.
      Reviewing the plan of reorganization/payment plan to determine if the IRS claim is
       adequately provided for.
      Identifying any potential stay violations, such as determining whether any liens were
       recorded or levy proceeds were received after the petition date.
      Attending the FMC. Specialists may be required to attend these meetings to address any
       pending compliance issues, such as unfiled returns, or to clarify questions regarding the
       existence or disposition of assets or discrepancies between information secured from
       internal or external sources.
Specialists use a variety of tools to assist in the completion of the initial case analysis. These
tools include, but are not limited to, the IRS’s Integrated Data Retrieval System, Integrated
Collection System, Automated Collection System, and examination files. Outside tools may
include the Public Access to Court Electronic Records system, commercial locator services,
local court house online records, and online real estate property valuations. The facts and
circumstances of each case should determine the extent of the research conducted.

Monitoring for Filing and Payment Compliance
Specialists must monitor bankruptcy cases to ensure that taxpayers are compliant with filing
current and post-petition tax returns and making Federal tax deposits, if required, while their
bankruptcy cases are being worked in the court. In addition, specialists should monitor
payment plans in appropriate cases to ensure that taxpayers are making required payments
according to the plan.  
Federal tax debts may or may not be dischargeable in bankruptcy. Factors affecting whether a
Federal tax debt is dischargeable include the age and type of tax, the type of debtor (individual or
non-individual), the chapter under which the bankruptcy case was filed (Chapter 7, 11, or 13),
and whether the debtor committed certain bad acts.

                                                                                              Page 25
                   Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                        the Government’s Interest Were Not Always Followed



For example, Federal income taxes generally are only dischargeable in Chapter 7 cases of
individuals if:
          The tax debt is not entitled to priority. This would generally include an income tax that is
           more than three years old.
          The tax debt did not relate to a fraudulent return and the taxpayer did not willfully
           attempt to evade the tax.
          The taxpayer filed a return for the tax, and if the return was filed late, it was not filed
           within two years of the bankruptcy.

Initiating Closing Actions
There are five common methods of closing a bankruptcy case:
          Dismissal,2 which returns the taxpayer to a prepetition status, e.g., taxpayer is liable for
           all debts, including the accrual of applicable penalties and interest on liabilities. The
           taxpayer is no longer under the protection of the court, and the IRS is able to proceed
           with collection actions.
          Denial of discharge, which is treated the same as a dismissal.
          Discharge,3 which is a permanent injunction against the collection of the debt as a
           personal liability of the debtor. The discharge order is made by the court and relieves the
           taxpayer from financial responsibility for all or certain debts.
          Full paid, which is when the taxpayer’s plan is fully paid (plan satisfaction).
          No liability, which is when the IRS is notified of the bankruptcy filing, all tax returns are
           filed with no tax liability, and there are no pending or potential tax liabilities.
When closing a bankruptcy case, specialists should:
          Initiate timely closing actions after dismissal, discharge, plan satisfaction, or no liability.
          Determine and take any necessary actions to request a lien refiling and/or make a lien
           determination, if needed, to ensure that an NFTL is filed after the automatic stay is lifted.
          Use the appropriate case disposition in the AIS such as full paid, no liability, discharge,
           or dismissal, which are the most common methods of closure.
          Properly transfer cases to the Centralized Insolvency Operation function for closure,
           when appropriate.

2
    11 U.S.C. § 349.
3
    11 U.S.C. § 524.
                                                                                                  Page 26
               Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                    the Government’s Interest Were Not Always Followed



                                                                               Appendix V

                           Glossary of Terms

             Term                                    Definition

Automated Insolvency       The bankruptcy database maintained by the Collection
System                     Insolvency function. Its many functions work together to
                           allow the IRS to manage all of the bankruptcy cases in its
                           inventory.

Automated Proof of Claim   The APOC system is an automated system that performs a
System                     tax filing and payment compliance check on all cases
                           selected for processing.

Automatic Stay             An injunction that arises when a bankruptcy is filed
                           (11 U.S.C. Section (§) 362). It is a prohibition on the
                           commencement or continuation of certain legal or
                           enforcement activities against the debtor, the debtor’s
                           property, and property of the estate (subject to certain
                           exceptions).

Bankruptcy                 A legal proceeding administered by the U.S. bankruptcy
                           courts and governed by Title 11 of the United States Code
                           (11 U.S.C.), commonly referred to as the Bankruptcy Code.
                           The Bankruptcy Code establishes the law under which
                           bankruptcy proceedings are commenced, administered, and
                           closed.

Bankruptcy Estate          All legal or equitable interests of the debtor in property at the
                           time of the bankruptcy filing. The estate includes all
                           property in which the debtor has an interest, even if it is
                           owned or held by another person.

Bankruptcy Petition        The form filed by the debtor (or against the debtor by
                           creditors in an involuntary bankruptcy) with the court
                           requesting relief from creditors. It is filed to commence a
                           case under any chapter of the Bankruptcy Code.


                                                                                        Page 27
                Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                     the Government’s Interest Were Not Always Followed




              Term                                     Definition

Bar Date                     The date fixed by the court or by statute as the date by which
                             a creditor must file a proof of claim. The IRS is allowed a
                             minimum of 180 calendar days after the order of relief in
                             which to file a claim. The court may grant extensions for
                             cause.

Campus                       The data processing arm of the IRS. The campuses process
                             paper and electronic submissions, correct errors, and forward
                             data to the Computing Centers for analysis and posting to
                             taxpayer accounts.

Creditor                     Person or entity with a claim against the debtor and/or
                             property of the debtor at the time the bankruptcy petition is
                             filed. If the taxpayer had Federal tax debt, the IRS would be
                             a creditor.

Denial of Discharge          The situation in which a debtor goes through the bankruptcy
                             proceeding and is determined to remain responsible (usually
                             for cause) for all of the prepetition liabilities.

Discharge                    A court order which extinguishes the debtor’s personal
                             liability on many prepetition debts. It is the event triggering
                             forgiveness of debt in a bankruptcy case.

Dismissal                    The term used when a bankruptcy proceeding is terminated
                             prematurely. Debts are not forgiven, and the debtor does not
                             receive a discharge.

Embedded Quality Review      The system used by managers to document all case-related
System                       reviews of employees.

First Meeting of Creditors   The meeting at which the debtor is required to testify under
                             oath about financial affairs and to respond to questions from
                             creditors and the trustee. It is also referred to as the § 341
                             Meeting, 341 Meeting, or 341 Hearing (11 U.S.C. § 341).

Fiscal Year                  A 12-consecutive-month period ending on the last day of any
                             month. The Federal Government’s fiscal year begins on
                             October 1 and ends on September 30.

                                                                                         Page 28
                 Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                      the Government’s Interest Were Not Always Followed




              Term                                     Definition

Integrated Data Retrieval    A major IRS application consisting of databases and
System                       operating systems that support IRS employees working
                             active tax cases within each business function across the
                             IRS. This system allows employees to post transaction
                             updates to the IRS master files.

Master File                  The IRS database that stores various types of taxpayer
                             account information. This database includes individual,
                             business, and employee plans and exempt organizations data.

National Quality Review      A part of an integrated IRS-wide system of balanced
System                       performance measures. Performance is evaluated using
                             attributes that identify actions that move cases toward
                             closure through appropriate and timely case activity.

Notice of Federal Tax Lien   Document filed in a local government office to protect the
                             Federal Government’s right of priority against other creditors
                             of the taxpayer.

Petition Date                The date the bankruptcy petition was filed in the court.

Prepetition                  The period of time before the bankruptcy petition was filed.

Proof of Claim               A document a creditor files with the court to assert a right of
                             payment from the bankruptcy estate for prepetition debts.

Public Access to Court       An electronic public access service that allows users to
Electronic Records (PACER)   obtain case and docket information from Federal appellate,
                             district, and bankruptcy courts, and the PACER Case
                             Locator via the Internet. The PACER is provided by the
                             Federal judiciary in keeping with its commitment to
                             providing public access to court information via a centralized
                             service.

Receivership                 A receivership proceeding is when a State or Federal court
                             appoints a fiduciary (receiver) to take control of some or all
                             assets of a business or individual. The court appointing the
                             receiver has jurisdiction over the assets of the receivership.


                                                                                         Page 29
             Bankruptcy Procedures Designed to Protect Taxpayer Rights and
                  the Government’s Interest Were Not Always Followed




           Term                                        Definition

Secured Tax Period            Secured tax periods are those in which the IRS has an NFTL
                              attached to the taxpayer’s assets to secure a tax liability.

Small Business/               The IRS organization that services self-employed taxpayers
Self-Employed Division        and small businesses by educating and informing them of
                              their tax obligations, developing educational products and
                              services, and helping them understand and comply with
                              applicable tax laws.

Trust Fund Recovery Penalty   An assessment against an individual of a corporation who
                              failed to pay, on behalf of the corporation, all income and
                              Federal Insurance Contributions Act taxes withheld from
                              employees’ wages.




                                                                                        Page 30
   Bankruptcy Procedures Designed to Protect Taxpayer Rights and
        the Government’s Interest Were Not Always Followed



                                                   Appendix VI

Management’s Response to the Draft Report




                                                          Page 31
Bankruptcy Procedures Designed to Protect Taxpayer Rights and
     the Government’s Interest Were Not Always Followed




                                                       Page 32
Bankruptcy Procedures Designed to Protect Taxpayer Rights and
     the Government’s Interest Were Not Always Followed




                                                       Page 33
Bankruptcy Procedures Designed to Protect Taxpayer Rights and
     the Government’s Interest Were Not Always Followed




                                                       Page 34
Bankruptcy Procedures Designed to Protect Taxpayer Rights and
     the Government’s Interest Were Not Always Followed




                                                       Page 35
    Bankruptcy Procedures Designed to Protect Taxpayer Rights and
         the Government’s Interest Were Not Always Followed




 

                                                           Page 36
